No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

OCTOBER TERM, 2020

 

BRANDON LAMONTE SORENSON,
Petitioner,
vy.
UNITED STATES OF AMERICA,

Respondent,

 

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
contains 6,084 words, excluding the parts of the document that are exempted by the Supreme Court
Rule 33,1(d).

I declare under penalty of perjury that the foregoing is true and correct.

EXECUTED on the 1st day of February, 2021.

oS

ANTHONY R. GALLAGHER”
Federal Defender for the District of Montana
*RACHEL JULAGAY
Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

 
